<html>
<title> - REVIEWING CURRENT DEVELOPMENTS IN ETHIOPIA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 


               REVIEWING CURRENT DEVELOPMENTS IN ETHIOPIA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2018

                               __________

                           Serial No. 115-162

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.Govinfo.gov

                                 ______
                      
                      
                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
31-452PDF		      WASHINGTON : 2018
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania   	     TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tibor P. Nagy, Jr., Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................     8
Mr. Girum Alemayehu, co-founder, Ethiopian American Development 
  Council........................................................    27
Mr. Jamal Said, president, Oromo Community of Denver.............    32
Ms. Emily Estelle, senior analyst, Critical Threats Project, 
  American Enterprise Institute..................................    40
Mr. Yoseph M. Badwaza, senior program officer--Africa, Freedom 
  House..........................................................    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tibor P. Nagy, Jr.: Prepared statement.............    11
Mr. Girum Alemayehu: Prepared statement..........................    29
Mr. Jamal Said: Prepared statement...............................    34
Ms. Emily Estelle: Prepared statement............................    42
Mr. Yoseph M. Badwaza: Prepared statement........................    52

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71

 
               REVIEWING CURRENT DEVELOPMENTS IN ETHIOPIA

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The committee will come to order, and good 
afternoon to everyone.
    Our first order of business is to note that today many 
Ethiopians are celebrating the start of the New Year under the 
Ethiopian calendar. So I want to wish our friends a very, very 
happy New Year and many more to come.
    Many of the hearings that this subcommittee has held over 
the years, especially on Ethiopia, have been focusing on 
criticism, raising fundamental human rights issues in Ethiopia. 
As a matter of fact, I introduced a bill back more than 10 
years ago, the Ethiopian Human Rights Act. But today, however, 
strikes a far different tone, one not of criticism but of 
commendation for the great strides Ethiopia has made since 
Prime Minister Abiy assumed authority in April of this year.
    Consider where we were just a year ago: A state of 
emergency existed, and thousands of political prisoners 
languished in jail; a cold war standoff existed between 
Ethiopia and its neighbor Eritrea; and, of course, people in 
prisons were being tortured and mistreated in the most horrific 
of ways.
    As this subcommittee pointed out in a hearing we held in 
March 2017, and I quote: Increasingly repressive policy has 
diminished political space and threatened to radicalize not 
only the political opposition but also civil society by 
frustrating their ability to exercise their rights under law.
    In response to this, I introduced, along with original 
cosponsors Karen Bass and Mike Coffman, my good friend and 
colleague, H. Res. 128, a resolution supporting respect for 
human rights and encouraging inclusive governance in Ethiopia.
    The resolution sets forth milestones which needed to be met 
and passed thanks to the leaderships of so many, including our 
Chairman Ed Royce, our Ranking Member Eliot Engel, and, of 
course, Kevin McCarthy and the Speaker, who ensured that the 
bill got to the floor in a timely fashion.
    But success of this measure was due in largest part to the 
efforts of the Ethiopian diaspora community in the United 
States, which came together to demand that egregious human 
rights abuses immediately cease and that fundamental human 
rights must be promoted and protected for all in Ethiopia.
    Indeed, one of the greatest collateral benefits brought 
about by the passage of H. Res. 128 is the political 
effectiveness of the Ethiopian American community, which 
provided a textbook civics lesson for all of us to admire and 
to emulate. It is thanks to their tireless efforts of 
contacting their congressional Representatives, of providing 
very, very good insights as to what was going on on the ground 
and making the case in a persistent manner that helps spur 
Congress to action.
    Since assuming office, Prime Minister Abiy has begun to 
implement some of the very reforms that H. Res. 128 called for. 
He has released thousands--I say again--thousands of political 
prisoners and lifted the state of emergency. But he has also 
reached out to the diaspora community, catalyzed an end to the 
schism that had plagued the Ethiopian Orthodox Church, and 
initiated a historic peace deal between Ethiopia and Eritrea 
this past July.
    Indeed, it is hoped that his domestic reforms will also 
inspire Eritrea, which remains a repressive regime, to 
undertake similar internal reforms. As an aside, Eritrea must 
reform. Some estimates put it at more than 10,000 prisoners 
being held unjustly, including two U.S. Embassy staff, and one 
young Eritrean American named Ciham Ali Abdu.
    This then is an opportunity and an opportune moment for 
Eritrea as well to enact justice reforms, release political 
prisoners, and end coercive conscription policies. If that 
country did this, it would become too a critical U.S. strategic 
partner, and it could be--professionalize its military so as to 
contribute to peacekeeping missions.
    Just a few weeks ago, Ranking Member Karen Bass and I 
visited--and our staff--the Ethiopian capital of Addis Ababa, 
where we met with Prime Minister Abiy, and a very broad array 
of individuals and groups including His Holiness Abune Mathias 
I. One impression I had was a profound feeling of change and 
optimism, the likes of which I have not seen in Ethiopia ever.
    For what he has accomplished in less than half a year, the 
Prime Minister deserves praise and encouragement, yet we still 
must keep in mind that expectations have been raised and the 
reforms he has begun must continue. For example, the notorious 
charities and societies proclamation and the antiterrorism 
proclamation both passed in 2009 remain on the books and thus 
retain the potential to stifle legitimate civil society 
organizations and political speech.
    Many former prisoners and torture victims still demand 
justice. Ranking Member Bass and I met with several groups of 
tortured victims in Addis, and what they described as having 
what they went through was absolutely horrific. One refrain we 
heard over and over, including from the Orthodox Church, is 
that there is a need for a truth and reconciliation in order 
for the country to move forward.
    There also needs to be an opportunity for people who have 
been displaced to return home. Catholic Archbishop Abraham 
Desta of Meki recently brought to my attention that over 2.5 
million people are internally displaced and require the 
government's immediate attention, especially by providing 
education for displaced children as the school year has already 
started.
    The economy needs to grow to provide jobs for the many 
youth, including those who have participated in protests and 
civil disobedience; reforms in the economic sector, including 
liberalization and deregulation; as well as an opening of the 
economy to ethnic groups that have not been fully enfranchised 
needs to continue. It also has been said that the reforms begun 
by Prime Minister Abiy represent a<greek-l>, quote, deg. 
``once-in-a-generation opportunity for Ethiopia.'' It is thus 
absolutely crucial that this opportunity be seized and in no 
way squandered.
    With this in mind, the United States must remain a strong 
partner with Ethiopia, someone we know that they can call upon, 
and I know we are. We are so grateful to have our Assistant 
Secretary, who was the former Ambassador to Ethiopia, here 
today.
    We collaborate on counterterrorism measures. We support and 
are grateful for Ethiopia's contribution to peacekeeping, 
indeed with more than 12,000 troops deployed between U.N. and 
AU missions. Ethiopia is the largest contributor to 
peacekeeping missions worldwide, and we must continue to 
encourage Ethiopia to participate in international military 
education training, or IMET, military professionalism programs.
    I also was encouraged by our conversations with military 
Chief of Staff General Mekonen on training Ethiopian 
peacekeepers on fighting the blight of human trafficking. 
Ethiopian is currently a tier two country. As the author of the 
Trafficking Victims Protection Act, I will be strongly 
advocating that all antitrafficking training be included in our 
IMET training for Ethiopian peacekeepers. Again, they are not 
tier one, which is the best tier, to try to help them make 
progress in a broad range of trafficking issues in that 
country.
    I do believe, having met the man and having had an 
opportunity to engage in substantive discourse with him, Prime 
Minister Abiy is the right man for the right time and therefore 
deserving of our support.
    Finally, and speaking of support, I want to especially 
thank our Ambassador, Mike Raynor, our Deputy Chief of Mission 
Troy Fitrell, and political officer Wilson Korol, as well as 
all our Embassy staff for the support that they gave for our 
delegation. Their professionalism and their designation should 
give us great confidence that our relationship with the Prime 
Minister and his staff and country will remain strong and we 
will move forward together.
    I would like to yield to my good friend and colleague, Ms. 
Bass, for any opening statements.
    Ms. Bass. Thank you. Thank you, Chairman Smith. Thank you, 
one, for leading the codel and having us go down--even though 
it was a short trip, I think we were able to accomplish a lot--
and especially for holding this hearing today.
    I want to welcome the Assistant Secretary. Thank you for 
your time coming and addressing us today.
    With the transition to Prime Minister Abiy Ahmed, it is an 
opportune time to take a closer look at our bilateral 
relationship and what opportunities exist to strengthen the 
bond between our two nations.
    As Africa's fastest growing economy and its second most 
populous country, Ethiopia is a key regional partner for the 
U.S. The last few years, while unstable and at times chaotic, 
have led to a peaceful transition of power to Africa's youngest 
leader.
    The Prime Minister's initial efforts are promising and have 
elicited effusive headlines from international news 
publications. However, we do know that he faces daunting 
challenges ahead, including regional security issues, the 
country's past human rights record, ethnic tensions across the 
country, and hardliners within the EPRDF that hope to stall his 
reform agenda.
    And I think holding this hearing today and beginning this 
process of examining our relationship, it is really an 
opportunity for us to figure out as the U.S. how we can help 
move Ethiopia forward especially in this time period.
    And then relations with Somalia and Eritrea continue to be 
Ethiopia's top security concerns, and we know that the 
government will need to address tensions with Somalia as well 
as its key role in counterterrorism efforts. Ethiopia will also 
need to navigate rapprochement with Eritrea while easing 
concerns from its own citizens over recent peace deal ending a 
decades-long stalemate.
    Despite these challenges, I will say, for the last 14 
years, I have represented a large Ethiopian community in Los 
Angeles. We even have a section of town that is called Little 
Ethiopia. And for the last 14 years, the diaspora has been so 
concerned and so upset at what was taking place in their 
homeland. And to me, it has just been so inspiring to see the 
Ethiopian diaspora and the people in Ethiopia--and when we 
visited--that are really encouraged and excited about the 
possibility of moving forward and recognizing that there are 
daunting challenges.
    We did face a little pushback when we were there over our 
resolution 128, and some people voiced why did we do it at that 
particular time, what was our timing, what were we trying to 
say. And the chairman and I had an opportunity to explain that, 
you know, the resolution was not trying to--well, it was trying 
to be encouraging and wanting things to move forward and was 
not trying to slap Ethiopia right when change was occurring. We 
had an opportunity to really discuss that with many people.
    I am looking forward to seeing how we can provide 
continuing support but how our support might change. I mean, 
one of the things that we know is going to be a challenge is 
governance, preparing for elections. When we met with the Prime 
Minister, the Prime Minister was very clear that he wanted to 
see change take place, but he was not wedded to be the Prime 
Minister forever, and he made that point very clear with us.
    We had the opportunity to meet with different ethnic groups 
and for them to express their concerns. And I think that one of 
the challenges that Ethiopia is going to face now is how to do 
the reconciliation, how to account for human rights abuses that 
took place in the past, how to account for that, and how to 
bring people together at the same time.
    And then when we spoke with the Prime Minister, you know, 
he was clear: We want to move the country forward, and we will 
have to figure out the truth and reconciliation process along 
the way, but we can't stop and just focus on the grievances 
from the past. We absolutely have to do that healing, but we 
have to move the country forward.
    I want to welcome my colleague, Mr. Garamendi from northern 
California, who is here, and I know he will speak in a minute. 
But I was particularly happy to have him come here because Mr. 
Garamendi lived in Ethiopia and was a member of the Peace Corps 
many years ago and, in all those years since, has maintained 
contact with the village in which he served.
    Thank you very much. I yield back my time.
    Mr. Smith. Ms. Bass, thank you very much for that.
    And we will recognize Mr. Garamendi in a moment, but I 
would like to yield to Mr. Coffman from Colorado, who has been 
a tenacious promoter of human rights in Ethiopia.
    And as the ranking member pointed out, you know, when we 
brought this up in April, Prime Minister Abiy had already, 
obviously, assumed office. But we introduced this in 2017, in 
February 2017. We went through some rewrites because things 
were changing on the ground, and frankly, we gave to his 
government a prescriptive list of what the U.S. Congress, the 
House of Representatives, expected would happen.
    And it has been very telling just how close many of the 
things that, on a bipartisan basis, we had recommended, 
starting with the release of political prisoners, have 
happened. So we hope that the resolution has made some 
difference.
    And as I said earlier, it does go back to 2005 after I 
visited with President Meles and was profoundly disappointed 
with his human rights abuses, which was legion at the time, and 
stressed--and introduced the human rights bill at that point 
toward Ethiopia. So thank you, Ms. Bass. We worked very closely 
on this, and the trip, I think, was a great success.
    And now I would like to yield to Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman, Ranking Member Bass.
    First, I would like to thank Chairman Smith, Ranking Member 
Bass, and the rest of the Africa, Global Health, Global Human 
Rights, and International Organizations Subcommittee for 
allowing me to participate in today's hearing.
    I have the distinct honor of representing the largest 
Ethiopian community in Colorado, I think one of the largest in 
the United States that is in my congressional district. And 
over the past few years, it has been my pleasure to get to know 
them, listen to their concerns, and work on their behalf here 
in Washington, DC.
    I am also very proud to have two of my constituents, Mr. 
Girum Alemayehu here today, and Jamal Said, to offer their 
thoughts on the current situation in Ethiopia.
    What we have seen in Ethiopia over the past few months has 
been entirely remarkable. New reforms and changes under the 
leadership of Prime Minister Abiy have started Ethiopia on what 
I believe to be a stronger path of inclusion, democracy, and 
new freedoms. It is of the utmost importance that the United 
States can show to Ethiopia and the Ethiopian people that we 
stand side by side with them as these reforms occur and that we 
are able to provide assistance whenever and wherever possible.
    House Resolution 128, which was passed by the House of 
Representatives on April 10, has played an important role in 
illustrating the commitment that the United States has 
concerning the people of Ethiopia. This legislation called on 
the Government of Ethiopia to make clear, decisive steps toward 
becoming more inclusive, more democratic, and more respectful 
of the basic human rights of its own citizens.
    I was very glad to see House Resolution 128 enjoy such 
bipartisan support from the Foreign Affairs Committee as well 
as in the full House of Representatives. While progress has 
been made, we must also be aware of the steps that are still 
required to be taken to address some of the remaining issues 
within Ethiopia. Specifically, there are still very troubling 
reports of ethnic violence taking place in the country where 
many have died and hundreds of thousands have been displaced 
from their homes.
    We also still want the results of the FBI's investigation 
into the grenade attack on June 24, which occurred at a rally 
for the new Prime Minister and resulted in multiple deaths and 
injuries as well as what further actions may be required to be 
taken. The Ethiopian Government needs to be able to show that 
it can protect all of its citizens to be free and also that it 
takes great concern with the reports of continuing violations 
of human rights.
    Again, I would like to thank the subcommittee for inviting 
me to today's proceedings, and I look forward to listening to 
witnesses' testimonies as we continue this important discussion 
on how the United States and the House of Representatives can 
support Ethiopia as it works toward addressing some of these 
remaining concerns.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you, Mr. Coffman.
    The chair recognizes my good friend and colleague from 
California, Mr. Garamendi.
    Mr. Garamendi. I thank you, Chairman Smith and Ranking 
Member Bass. It is a privilege to be with you. This committee 
has been of extraordinary importance in all the work that you 
do and personally important to me because of your work in 
Africa and specifically Ethiopia.
    It was 50 years ago that my wife and I were Peace Corps 
volunteers in southwestern Ethiopia and attempted to--I could 
attempt to say [speaking foreign language] to all, maybe 
[speaking foreign language]. In any case, yes, we have gone 
back and forth to Ethiopia over many, many years.
    The current situation in Ethiopia is extraordinarily 
positive, and I, along with most others, remain very, very 
optimistic about where this new government will lead Ethiopia.
    There are certainly going to be issues that will affect the 
citizens and the people in the area. It is a complex country 
with many ethnicities and languages and incredible economic 
challenges and challenges from the neighborhood. I would 
encourage all of us to be attentive, not to be patient, but to 
also understand the complexities that face Ethiopia.
    I know that the current government, Mr. Abiy Ahmed, is 
doing everything he can. Of particular note--and I noticed the 
Ambassador's time in Ethiopia when the Eritrean-Ethiopian war 
was in full--underway with tens of thousands of people dying--
that the peace negotiations that occurred during that time in 
which a team of returned volunteers had a role, has apparently 
now taken hold after some 17 years of passage. That is a good 
thing. It will allow the northern part, in fact, all of 
Ethiopian and Eritrea to enjoy the benefits of peace and the 
reduction of the military attention that that area has had.
    There is much to be done. This committee is extremely 
important, and I really want to thank the committee for the 
opportunity to be here and to follow along. I know that my wife 
and I will continue to always love Ethiopia and the people of 
Ethiopia. Thank you very much.
    Mr. Smith. Thank you very much.
    I would like to now yield to our distinguished colleague 
from Virginia, Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    Very briefly, as I pointed out during this subcommittee 
hearing and the full committee hearings, and as I am sure our 
witness today is more aware of than I am, we are really at a 
turning point as it relates to Ethiopia's march forward. There 
are certain demographic and geographical realities on the 
ground.
    For example, there is 15.5 times as much land area in the 
nation-state of Russia as in Ethiopia, and yet the population 
of Russia is about 35 plus or minus million greater than that 
of Ethiopia. And so we have a lot of people in a relatively 
small area, which creates problems in and of itself, 
particularly when we consider the birth rates therein.
    And this isn't necessarily a good or bad thing; although, I 
will point out the amazing diversity and vibrant cultural 
contributions as well as contributions in the realms of the 
arts and sciences, et cetera. They go back literally millennia 
to the region. But if we don't start to get it right, we may 
not be able to reel it back in.
    And so I am encouraged by Prime Minister Abiy's steps. I 
think that we are headed in the right direction but certainly 
as it relates to regional stability, which I think I could 
articulate and argue plays in the 21st century directly into 
global stability, we need to make sure we get this right.
    And so, Mr. Chairman, members of the panel, it is important 
that what we do here today, that we formulate policy in the 
United States appropriate to our role as an outside nation to 
encourage and support Ethiopia as it tries to develop 
economically, educationally, culturally, socially, and that we 
stand and speak with a clear voice as it relates to civil 
societies, as it relates to best practices, engaging disparate 
elements and opinions, because we won't have today over again.
    So, with that, I thank the chairman for calling this 
meeting, and I thank the members of the panel. I hope that we 
can do good work for the future here today.
    Mr. Smith. Thank you, Mr. Garrett.
    I would like to now introduce our very distinguished 
leader, in the job for a month but certainly a very wise and 
experienced Africa hand, a man who has done tremendous work 
over the years, Tibor Nagy is the Assistant Secretary in the 
Bureau of African Affairs.
    Ambassador Nagy has spent over 32 years in government 
service, including 20 years in assignments across Africa. He 
served as United States Ambassador to Ethiopia from 1999 to 
2002 and the United States Ambassador to Guinea from 1996 to 
1999. He also served as deputy chief of mission in Nigeria from 
1993 to 1995, in Cameroon from 1990 to 1993, and in Togo from 
1987 to 1990.
    After his retirement from the Foreign Service and before 
being called back into service, Ambassador Nagy was vice 
provost for international affairs at Texas Tech University from 
2003 to 2018. Ambassador Nagy has received numerous awards for 
his service, including recognition for helping prevent famine 
in Ethiopia and supporting efforts to end the Ethiopian-
Eritrean war. He has lectured nationally on African development 
and U.S. diplomacy and serves as a regular op-ed contributor to 
the Lubbock Avalanche-Journal Newspaper on global events.
    Ambassador Nagy is also coauthor of ``Kiss Your Latte 
Goodbye: Managing Overseas Operations,'' the nonfiction winner 
of the 2014 Paris Book Festival. He came to the United States 
in 1957 as a political refugee from Hungary. He received his BA 
from Texas Tech, MSA from George Washington University, and he 
and his wife Eva Jane have three children and the first 
triplets to be born in independent Zimbabwe.
    We welcome you, Mr. Secretary, Mr. Ambassador to the 
committee. And, again, we thank you for your extraordinary 
service for so many decades and look forward to your testimony.

   STATEMENT OF THE HONORABLE TIBOR P. NAGY, JR., ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Nagy. Thank you very much. Mr. Chairman, Ranking 
Member Bass, and members of the committee, thank you for the 
invitation to testify today on U.S. national interests and 
recent developments in Ethiopia.
    I also wanted to take the opportunity in this hearing--my 
first before you--to address Eritrea and the regional 
significance of the improving relationships between Ethiopia 
and Eritrea. As a former U.S. Ambassador to Ethiopia, this 
topic is of great importance to me personally, so it is a real 
pleasure to be here with you today.
    Mr. Chairman, Ranking Member Bass, I also want to thank you 
for your recent trip to Ethiopia. I greatly appreciate the 
focus that Congress has on this region, which I believe is very 
important for our national interests, and I welcome the 
opportunity to discuss recent developments with the 
subcommittee.
    Allow me to open our time today with some thematic remarks 
on recent developments. In Ethiopia, Prime Minister Abiy Ahmed 
has initiated groundbreaking reforms across most every area of 
Ethiopian society since becoming Prime Minister on April 2, 
2018. He deserves tremendous credit for his boldness in 
tackling issues that previous governments have not addressed.
    We have a strong relationship with the highest reaches of 
the new administration which reflects not only our century-long 
diplomatic relations with Ethiopia, the only country in sub-
Saharan Africa which was never colonized, but also our great 
support for Dr. Abiy's reform vision.
    Implementing this reform vision is not without its 
challenges, and to make such broad and rapid changes will 
require reinforcing the foundation for the relationship between 
the Ethiopian people and its government. We have seen Dr. Abiy 
do so, actively engaging with the public to support his 
government and his works to implement reforms. In July, he came 
to the United States to meet with the Ethiopian diaspora 
members, many of whom are enthusiastic participants in our own 
electoral process and care greatly for their homeland.
    Dr. Abiy has also taken dramatic steps to end the former 
government's repression of civil liberties, inviting a 
diversity of voices, including many who were previously 
criminalized to participate in Ethiopia's future. Yet, 
strengthening institutions, setting the economy on a firm 
footing, and restoring stability to areas facing humanitarian 
disaster and ethnic conflict will not be done overnight.
    The expectations of the Ethiopian people are also 
incredibly high and many of them are young. We estimate that 
there are around 70 million Ethiopians younger than 30, many of 
whom have participated in protests in recent years due to 
frustration with corruption and the lack of economic 
opportunity.
    The Ethiopian Government has openly sought partnership with 
the United States to achieve its ambitious reform plans. We 
have a tremendous opportunity to support Ethiopia as a friend 
and partner in the process. We are working to provide support 
to Dr. Abiy and his administration across all of these 
challenges as he continues his work in years ahead.
    But looking more broadly at regional issues, we 
enthusiastically welcome Dr. Abiy and Eritrean President Isaias 
Afwerki working together to end 20 years of conflict between 
Ethiopia and Eritrea. There is still much work to do to repair 
the consequences of the conflict for the peoples of both 
countries, especially in borders regions. But we have already 
seen a tremendous outpouring of emotion on both sides 
supporting peace, and both governments have highlighted the 
positive consequences this will bring for the entire Horn of 
Africa.
    We support both sides as they explore possibilities for 
peace and continue to encourage and support their long-term 
success. But guaranteeing the full benefits of peace for years 
to come will depend on the strength of all parties' efforts to 
restore friendship and prosperity to both countries, and this 
must be done as inclusively as possible including with other 
important partners in the region and beyond.
    Since Eritrea's mid-June decision to send a delegation to 
Ethiopia, there have been several meetings between the two 
governments' officials in Asmara, Addis Ababa, and capitals 
across the Horn of Africa to discuss trade, development, and 
tourism.
    So far, the public and tangible examples of improved 
relations are the reopening of telephone service and the 
resumption of regular flights between both countries. And since 
this was written, they just opened their land borders yesterday 
at two points, which was remarkable.
    Eritrea is also expanding capacity at the Port of Massawa 
for use by Ethiopia, and it was just announced early in 
September that an Ethiopian commercial vessel used the Port of 
Massawa for the first outbound shipment on an Ethiopian vessel 
since the peace agreement. We anticipate that these and other 
steps will create the potential for greater development of 
people-to-people ties on both sides of the border.
    Peace between Ethiopia and Eritrea leads us to another 
remarkable story: Eritrea's reemergence onto the regional and 
global stage and the many potential opportunities for the 
United States stemming from regional peace. With Ethiopian-
Eritrea's conflict ending, we see strong potential for 
Eritrea's contribution to improving regional security.
    Eritrea has resisted extremist threats and could provide 
lessons to others on how to maintain a diversity of communities 
free from violent extremism. Eritrea can also contribute to 
regional peace and stability, as we have seen with Eritrea's 
engagement with Somalia and South Sudan and Eritrea's role-
brokering agreements among Ethiopian opposition groups.
    Eritrea, which has a strong tradition of self-sufficiency 
and independence, could also promote a stronger regional 
approach to countering potentially malign influences of global 
competitors operating in the region. Nonetheless, we still have 
significant concerns in our bilateral relations with Eritrea 
that we will continue to highlight in days ahead.
    Eritrea currently continues to imprison several of our 
Embassies' locally employed staff members for politically 
motivated reasons. We have also raised concerns about the 
detention of American citizens who are detained for the same 
reasons.
    Though Eritrea has regularly asserted that it has no 
substantive relationship with the Democratic People's Republic 
of Korea, Eritrea has not fully explained certain past arms 
procurement transactions between Eritrea and the DPRK that the 
U.N. panel of experts reported. Broader human rights concerns, 
such as indefinite obligatory national service, the arbitrary 
detention of religious and political prisoners, and a tightly 
controlled opaque system of government also hinder our scope 
for cooperation.
    The United States has deliberately engaged with Eritrea in 
recent months, with both these opportunities and concerns in 
full view, and we will continue to do so. Although we have 
already seen many gains from peace, which the President and the 
Secretary of State have both hailed publicly, further progress 
will require more action, some of these priority issues in 
Eritrea.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Ambassador Nagy follows:]
    
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. I thank you so very much, Mr. Secretary, again, 
for your leadership and for being here today.
    I do have a number of questions, and I will ask them in 
somewhat succession. We do have a number of members here today, 
and I think that is a good sign of the concern that we all 
have.
    Let me start with sex trafficking and trafficking in 
general. Again, it is an area that I have spent more than 25 
years working on and written a number of laws on, and I raise 
it everywhere every time I go. And Ethiopia does have a 
problem. Prime Minister Abiy inherited a very significant 
problem with child sex tourism which remains unabated in Addis 
Ababa, Bahir Dar, Hawassa, Bishoftu, to name at least some 
areas where it is very, very rampant.
    Convictions have dropped. In 2016, there were 640; in 2017, 
it dropped to 182, a very bad trend line, because we know the 
problem has not gone away. And on a positive note, last month, 
Sudan and Ethiopia signed an agreement to work together on 
their border to fight against human trafficking, and I think 
that was a great step forward.
    And when Karen Bass and I met with Chief of Staff General 
Mekonen, we both really strongly made the point that his 
soldiers need to be trained in how to mitigate human 
trafficking, to spot it, to be on the side of protection and 
not on the side of exploitation.
    He seemed very open to it, especially when we mentioned the 
IMET training that might be an area where we could include 
this. And I wonder if you could just speak to that, because he 
has so many issues and problems he has to deal with all at 
once, and I think there is a key here or a concern that we need 
to all manage expectations. It is not all going to be done in a 
day. But I think this needs to be emphasized very, very 
strongly.
    Secondly, if I could, and that is on the issue of the 
internally displaced, 2.6 million displaced, about 1 million 
IDPs in eastern Oromia. What are we doing to try to help them 
in their humanitarian crisis, which is obviously severe?
    We have also raised on our trip--and we are doing it again 
here; we have done it in our resolution and elsewhere--the use 
of torture against so many individuals. I know the Prime 
Minister has cleaned house of some of the worst of the worst, 
but we know in Maekelawi prison, which is finally being shut 
down, we heard stories of people who had been grossly 
mistreated. And obviously the guards and others who were a part 
of that need to be held to account.
    And, finally, the whole issue of China's influence--and I 
know you are very concerned about that, as well--the debt that 
they are piling on one African country after another that will 
become unsustainable in exchange for their minerals, their oil, 
their wood. It is a one-way ticket to Beijing in terms of the 
net benefits of that relationship, and I think Ethiopia is 
beginning to understand that themselves.
    So maybe you can speak to that as well.
    Ambassador Nagy. Sure. Thank you very much, Mr. Chairman.
    Four extremely important areas to address. Maybe I can take 
them in reverse order. The Chinese one is extremely important, 
and that is one that is of great personal interest to me. I 
think the Ethiopians definitely understand that China is not 
the long-term solution for their problems.
    I think it is true in just about all of Africa that the 
problems--the greatest problems they are going to face is this 
demographic wave of the population doubling between now and 
2050. And the solution all comes down--it sounds simplistic, 
but it is really not, but it comes down to jobs, jobs, jobs for 
the young people.
    And Prime Minister Abiy, I think, is one of those 
enlightened leaders that fully comprehends that to take 
Ethiopia on a road to prosperity and stability, it requires 
creating jobs, jobs, jobs for those millions and millions and 
millions of young people who are, you know, a huge percentage 
of the population will be under 15. And that is not going to 
come from trade with China.
    So he is extremely eager to open up trade and commerce in 
Ethiopia with other companies. They are reaching out to us, as 
are a number of other African countries, and I think it is 
extremely important for the United States to engage with him, 
obviously not only that area, but that area is critically 
important to their long-term future.
    And that will require several strategic steps because, of 
course, it will require work on the part of Ethiopia to put on 
in the kind of enabling environment which will be welcoming to 
other companies besides Chinese, and I think that they are very 
eager to proceed on that. It will also require work on the 
United States Government's part to help the Ethiopians 
technically in those areas.
    And then, finally, it will also require us to reach out to 
American companies to go to Africa because, unlike China, we 
don't have state-owned corporations and state-owned banks to 
where we order companies to go to countries X, Y, and Z and 
invest so much money.
    American companies, I know, are eager to invest in Africa, 
especially Ethiopia has now a phenomenal reputation. And in 
many cases, companies want to do that, but they find it 
difficult because they are not sure that the environment is 
right for them. So it is a cycle that we actually have to step 
into and work on to help Prime Minister Abiy succeed.
    In the area of the use of torture, extremely important 
area. The United States, of course----
    Mr. Smith. While you are answering, could you just add to 
that answer. The Torture Victims Relief Act, and I authored 
four of those over the years, provide for that intervention for 
PTSD especially. Is that something that you would consider, you 
know, helping the Ethiopian Government obtain because those 
best practices lead maybe not to a cure but to an ability to 
overcome the nightmares to a great extent?
    Ambassador Nagy. Absolutely. And we have had experience 
doing this before. I remember when I was Ambassador in Guinea, 
the whole region was engulfed in Liberian and Sierra Leonean 
civil war, and the United States became quite active in working 
with the victims of torture to try to help them overcome that.
    As a matter of fact, we worked with the Peace Corps to 
introduce a brand new program to where third-year volunteers 
could actually--had to have the competent abilities to work in 
the camps specifically with the torture victims.
    So, as you said, Mr. Chairman, the military and the 
security forces are having to work on so many issues at the 
same time, but this is one that is critically important. And it 
is also one that the Ethiopians are going to have to have a 
national dialogue on, because different countries in Africa 
have had different approaches to this kind of internal peace 
and reconciliation post trauma.
    Liberians did it one way; Sierra Leoneans did it another 
way; the South Africans, of course, did it a certain way. And 
it has to be done culturally. But as you said yourself, they do 
have to come to some kind of resolution because, otherwise, it 
is a poison that will exist in their society going forward.
    We, of course,--it is not for the United States to tell 
other countries how to do it, but we certainly have to be 
prepared to support when asked to do so. And I was delighted to 
hear you say that even the military are interested in this. So 
that would be another one.
    On the internally displaced, as usual, I am--the United 
States does step forward very quickly. I was very pleased to 
see this, that in July, the U.S. Government announced more than 
$170 million in humanitarian assistance for the emergency 
response in Ethiopia.
    I mean, we are there. The internally displaced numbers are 
horrifying. They go back several years, although recently 
because of the emergency that happened in Somalia and the brief 
violence that took part there that added another great number 
of internally displaced. So we are there, USAID, Office of 
Foreign Disaster Assistance, Food for Peace, and we will 
continue to be there to monitor and to help whatever way we 
can.
    And let's see, I think the last one was the trafficking in 
persons. Again, I think you have a situation with Ethiopia 
where you have a transitioning government with the 
enlightenment to want to change things. Their problem comes up 
is that they have to change things in so many critical areas.
    And even the security forces, again, they want to improve. 
We want them to improve, would love to see nothing more than to 
see them get up to that tier one status. And they want to 
engage with us. We want to engage with them. We have made 
that--specific recommendations. So we will work with them on 
that very actively to help them get there. It is very rarely 
that you have a government with so many good intentions.
    Mr. Smith. Thank you. It might be worthwhile to configure a 
trip with the TIP office----
    Ambassador Nagy. Yes.
    Mr. Smith [continuing]. Because they are experts and they 
have a wealth of best practices that they could share.
    Ranking Member Bass.
    Ms. Bass. Thank you very much.
    And, again, Assistant Secretary, I really appreciate you 
being here today, and I look forward to welcoming you on Friday 
at the Africa Brain Trust that the Congressional Black Caucus 
is doing, and I know the public will look forward to hearing 
your comments.
    I wanted to follow up with the discussion that you were 
having about the reconciliation process, and specifically my 
questions want to know your opinions about what we can do in 
Congress to be helpful with the process.
    So, you know, when we met with the various groups, you 
know, top on their agenda was reconciliation. When we met with 
the Prime Minister, you know, you got a slightly different 
message. I mean, he understands how critically important it is, 
but at the same time, he doesn't want the country to be 
consumed by that. And so I just wanted to know your thoughts on 
what we might do that might be helpful.
    Ambassador Nagy. I believe that the best thing to do would 
be for the United States of America, as voiced by the people's 
Representatives, to recognize that Prime Minister Abiy has 
indicated an interest in going toward national reconciliation, 
the importance of national reconciliation, and that the United 
States stands ready to support any way possible to make that 
happen, as we did with South Africa, as we did with Liberia, as 
we did with Sierra Leone, to walk that fine line of not 
dictating but recognizing and respecting so that, as I said 
before, it does not become a poison in the future environment. 
It has to be taken out.
    Ms. Bass. Do you think it is helpful to do a resolution, a 
sense of Congress, or some kind of statement especially 
following on the heels of the resolution that we did?
    Ambassador Nagy. I think resolutions are greatly paid 
attention to in Ethiopia. During my time as Ambassador, I was 
called often by the Ethiopian Government based on actions that 
Congress took. So it definitely would receive widespread----
    Ms. Bass. That wasn't good, I take it.
    Ambassador Nagy. Pardon me?
    Ms. Bass. That was not good, I take it.
    Ambassador Nagy. Well, yes, I was chewed out a fair number 
of times because I was, let me put it this way, credited with 
the action that, in fact, Congress took.
    Ms. Bass. I see.
    Ambassador Nagy. But in that regard, so I think it would 
definitely have its purposes, and as I mentioned, it definitely 
would be noticed by not only the Ethiopian Government but the 
larger Ethiopian community worldwide. And it is not just in the 
U.S. diaspora, it is, you know, Ethiopians around the world.
    Ms. Bass. Right. Well, you know, when you mentioned 
promoting U.S. business involvement in Ethiopia--and I agree 
with you 100 percent, but one way we also might look to be 
helpful--I mean, the diaspora has been involved in terms of 
business, but we might look for ways to promote that, 
especially the diaspora that has not felt they could really 
engage with the country because of prior administrations. So 
something that we might figure out what we could do to help 
promote diaspora business involvement as well, in addition to, 
you know, the multinational corporations.
    I wanted to ask you also about Eritrea. With the opening of 
relations between the two countries, do you think or do you 
have any sense at all whether the force, national service will 
continue on the military side, you know, considering what the 
nature of it would be, and especially given that that is one of 
the major reasons for the migration out of Eritrea, you know, 
and the people getting on the boats and attempting to make it 
to Europe?
    Ambassador Nagy. Representative Bass, you are absolutely 
right on that. Up to now, for the last 20-plus years, Eritrea 
has used Ethiopia as an excuse to maintain what I would almost 
call a fortress state and have one of the largest standing 
armies in Africa, despite the size of their population, plus 
the heinous national service, which never seem to end. With the 
opening of peace, they really will no longer have a reason to 
do that.
    So we will be very--we will be following events very 
closely to see what domestic steps the Eritrean Government now 
takes to go along with their outward openings internationally, 
because I think it is critically important for Eritrea to do 
domestically the types of openings that they are doing 
internationally.
    I was astounded also a couple of days ago to see the 
Presidents of Eritrea and Djibouti embracing on the tarmac of 
Asmara Airport. These events, for me, are mind-boggling. In my 
40 years of following Africa, I have never seen this type of 
transition happen. I think it is a clear indication of the 
wonderful things that can happen from enlightened, strong 
leadership, just like we have seen awful things happen around 
unfortunately the continent and from other types of leadership, 
which is the opposite of that.
    And I hope that that serves as an example to President 
Isaias as well, that it leads to instant popularity. You don't 
have to have a repressive state when you are doing the right 
thing and you are taking your people's interests as your first 
goal.
    Ms. Bass. Do you see our relationship having changed at all 
with Eritrea since opening with Ethiopia?
    Ambassador Nagy. Well, the atmosphere has improved, I 
think, remarkably, but now let's get to the heart of the issue 
and let's get to actual events and actions, because that also 
goes, for example, to the sanctions regime.
    You know, Eritrea cannot assume that by saying wonderful 
things and opening good relations with the neighbors, that that 
will automatically lead to sanctions relief. There have to be 
concrete actions taken, and we, of course, will remain very 
engaged and, you know, say things that will not always be 
popular, but they have to be said.
    Ms. Bass. Thank you.
    Mr. Smith. Thank you very much.
    I yield to my good friend from Denver.
    Mr. Coffman. Thank you, Mr. Chairman.
    Real concerned with these extraordinary numbers, high 
numbers of displaced individuals in Ethiopia and the ethnic 
tensions inside the country. Is there anything else that the 
United States can do to influence that situation in terms of 
getting better, reducing the tensions, and what is the Prime 
Minister able to do?
    Ambassador Nagy. That also--thank you, sir. That is a 
phenomenal question because ethnicity in Ethiopia is such a 
historically interesting issue. In one respect, Ethiopia being 
an ethnic federalism offers almost a unique model in Africa 
based on how some of the other States have been structured 
because of the boundaries. So it offers that example.
    So ethnicity in Ethiopia has been a very stark issue. But 
then, on the other hand, of all the places I have served in 
Africa, I have never met people like in Ethiopia who carry all 
of them a sense of Ethiopianess in their DNA going back to 
2,000 years of Ethiopian history. So it is one of those, you 
know, two forces existing in the same place.
    I believe that Prime Minister Abiy recognizes that the best 
solution to ethnic friction is economic progress, economic 
opportunity for the young people who live there, because if the 
opportunities exist and there is really no reason to be having 
animosity toward other--that other ethnicity that may be in the 
other side of town, and I believe that he intends to work in 
that regard.
    We, of course, may be in position to offer programs of 
technical assistance in this regard. But I truly believe the 
heart of the issue and the heart of the solution really would 
be economic progress to where the ethnic groups don't feel that 
urgency of competition just based on ethnicity.
    Mr. Coffman. Ambassador, you mentioned about the need to go 
through--for Ethiopia to go through a process of 
reconciliation. You gave some examples of different countries 
that have gone through a process of reconciliation. One of your 
examples is South Africa. Is South Africa in some way a model 
of reconciliation?
    Ambassador Nagy. The only difference being there that in 
South Africa, you have, of course, that racial dimension, which 
is almost unique to that country. In Zimbabwe, it was at one 
time but not to the extent in South Africa, which is quite a 
bit different from Ethiopia, because in Ethiopia it was not a 
racial dimension or even so much of an ethnic dimension as just 
abuse of a segment of the population by a historicity of 
regimes, going all the way back, in some respects, you know, 
quite frankly, to the Emperor but then, of course, certainly 
the Mengistu regime, the successor regime led by Prime Minister 
Meles, and the post-Meles government. Now the one that wants to 
take the lid off everything, let the light in, transparency, 
openness, it falls to them to--in many respects it is unfair 
because it falls to them to have to undue the harm that has 
been done in previous generations, but it has to be a 
restorative but also cathartic experience.
    Mr. Coffman. Ambassador, what can we do to assist Ethiopia 
to try to make these changes, these reforms from the Abiy 
administration, the Prime Minister, sustainable?
    Ambassador Nagy. To continue engagement, to take a whole-
of-government approach, to mobilize all of our resources 
together, and, in commonality, to maintain an ongoing dialogue 
to stay with it, and also to act as quickly as the U.S. 
Government is capable of acting because he is moving very, very 
quickly. And he realizes also that the changes that he is 
bringing in are quite fragile and that his people are expecting 
him to move quickly also and to show progress.
    So we have to be also very flexible and very deft. And I 
would like to also echo what the chairman said that we are 
fortunate to have Ambassador Raynor in Addis at this time, an 
extremely talented Embassy staff.
    Our communications are constant. Their communications with 
Abiy's government, Prime Minister Abiy's government, are 
ongoing and constant, so we are going to all work together to 
be able to maximize the effectiveness of the U.S. Government 
because all of us want to see the same thing for a whole 
variety of reasons, from U.S. security to our business 
prosperity but also to the regional stability in the Greater 
Horn of Africa.
    Mr. Coffman. Thank you, Mr. Ambassador.
    Mr. Chairman, I yield back.
    Mr. Smith. Thank you very much, Mike.
    We are joined by the distinguished chairman of the full 
Foreign Affairs Committee, Chairman Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    I will just make some general observations here, but let me 
begin by thanking you and ranking member Karen Bass for the 
trip that you made to Ethiopia and the arguments you put 
forward.
    And let me also thank Mike Coffman. We worked together on 
the resolution. And let me say that this issue, Mike, of 
advancing human rights in Ethiopia is one that I think we are 
somewhat encouraged by some of the recent events, but your 
observation that we need to sustain this progress, we need to 
see the Prime Minister's work sort of taken up as a long-term 
commitment by the government is important. The focus of the 
resolution was for the government in Ethiopia to address these 
human rights concerns head on. And we have indeed, as I say, 
seen some commendable progress since then.
    When he took office in April, the Prime Minister Abiy Ahmed 
took some pretty bold steps to reform Ethiopia's government, 
some pretty bold moves on the economy as well. And we have tens 
of thousands of political prisoners now that have been 
released. Many more in exile have felt safe enough to return 
home. That is what I am told in Los Angeles and in southern 
California by the community. Media freedom certainly has 
expanded from where it was. And the government, I think, in 
their public recognition about the need to systemically improve 
human rights conditions have made the right commitments there.
    The economic reforms are encouraging, but many of them are 
proposed at this point, so we want to see full implementation 
and enforcement. There has also been historic progress toward 
resolving the conflict between Eritrea and Ethiopia, and we 
should comment on that because, during my time as chairman of 
the Africa Subcommittee, we held a number of hearings on the 
brutal conflict between these two countries.
    Years later, we can finally look upon the conflict with 
cautious optimism. The recent reconciliation between these two 
countries is very encouraging. Genuine peace and improved 
economic and security cooperation, of course, would bring 
stability, would bring mutual prosperity to both Ethiopians and 
Eritreans.
    But I think this is just the beginning. The road ahead for 
Prime Minister Abiy's government will be a very challenging 
road. It must increase accountability of government officials. 
You have got to do something about accountability of the 
security forces. It will ensure that all citizens' voices are 
heard and respected.
    The U.S. and Ethiopia have long enjoyed a strong, bilateral 
relationship, enjoyed the opportunity with the congressional 
delegation we took to Ethiopia, and I know my colleague 
sacrificed a lot of time and effort there, John, when you were 
in Ethiopia at a very difficult time with the Peace Corps. 
Americans are rooting for an Ethiopia on the mend, and 
everything we see is encouraging.
    So our committee will continue to track developments and 
look forward to further strengthening the partnership, further 
strengthening Ethiopia's efforts toward becoming a more free, a 
more inclusive, a more prosperous nation. And I thank the 
Assistant Secretary for his engagement in all of this.
    Ambassador Nagy. Thanks, Mr. Chairman.
    Mr. Royce. I yield back.
    Mr. Smith. Thank you, Mr. Chairman.
    I would like to yield to Mr. Garamendi.
    Mr. Garamendi. Once again, Mr. Chairman, thank you for the 
privilege of joining your subcommittee for this hearing, an 
extremely important hearing.
    Chairman of the full committee Mr. Royce, thank you for 
your many years of attention to Africa and Ethiopia in that 
process.
    And, Mr. Coffman, the same.
    Just a couple of things. I am on the Armed Services 
Committee, and the new National Defense Strategy emphasizes 
Russia and China. The result of that, apparently, is a movement 
by the Department of Defense to move away from Africa, 
particularly the Sahel and areas of violent, extreme 
organizations.
    I draw that to the attention of this committee, the 
interrelationship between the work of this committee and the 
Armed Services Committee, with regard to the role of the 
Department of Defense and the State Department in Africa 
deserves our attention.
    Of specific interest beyond that is some of the questions 
that have arisen with regard to the current famine, drought 
that is occurring on the eastern portions of Ethiopia and 
probably going to move beyond that. The work of this committee 
in pushing back on the $300 million rescission in the food aid 
programs is much appreciated, I think by--certainly by 
everybody that pays attention to what is going on in those 
countries.
    And I would draw the--and ask the Ambassador and Assistant 
Secretary about what specifically is taking place with regard 
to support for famine relief in the area as well as security 
issues.
    And, with that, I would yield back.
    Ambassador Nagy. Thank you very much.
    On famine relief, our Food for Peace for Ethiopia is at 
$373 million. And Ethiopia, as you know from your time there, 
unfortunately suffers periodic famine, and each time, the 
United States tends to be the first one there. I had the same 
thing happen during my ambassadorship, where we were actually 
able to stem off the famine.
    And the types of famine that hit it are of two varieties. 
Sometimes, unfortunately, a famine is in the highlands, and 
sometimes it is in the lowlands. Totally different 
requirements.
    But I am always honored to be associated with the United 
States of America, because, thanks to your generosity and the 
generosity of the American people, we are always the first ones 
there to respond. And we will certainly continue to do so going 
forward, whatever it takes. We are always the most generous. In 
my lecturing at Texas Tech, I always thanked the American 
farmers, because we had many of those kids in the classes.
    On the security front, of course Ethiopia is one of our 
most important partners, not just in the region but also 
throughout Africa. As I believe the chairman mentioned, 
Ethiopia is the largest troop contributor to U.N. Peacekeeping 
operations. They contribute troops to several operations in 
Sudan. And then, bilaterally, they do it in Somalia because it 
is their neighbor and Somalia is critically important to their 
own peace and well-being.
    That is one of the other reasons this ongoing peace process 
between neighbors, one after the other, after the other, is so 
critically important. From my own experience in Ethiopia, I 
recognize the Ethiopian Armed Forces as one of the most 
professional I have ever worked with. And we depend on them for 
maintaining peace and security throughout the greater Horn, and 
we will certainly continue that engagement.
    Mr. Garamendi. Could you--excuse me, Mr. Chairman.
    Could you speak briefly about Sudan, southern Sudan?
    Ambassador Nagy. Well, of course, Sudan, South Sudan, 
Kenya--IGAD, everybody--has been devastated by the events in 
South Sudan. We were so optimistic when the country gained its 
independence, and what has happened since then has been 
devastating.
    And a little while ago, I was mentioning what a huge 
difference one enlightened leader who actually cares 
passionately about their own people, what a difference that has 
made to Ethiopia. And I mentioned the opposite of that. And I 
fear that that is exactly what we have seen in South Sudan.
    The current peace process is the only peace process we have 
going. We hope that it will succeed. And, of course, we will do 
our best to be supportive, because everybody wants to see peace 
and reconciliation there. Unfortunately, the leadership, to say 
that it was disheartening is an understatement.
    Mr. Garamendi. The role of Ethiopia in that has been long-
term and significant, and I assume it is remaining so.
    Ambassador Nagy. Yes, sir, absolutely. Ethiopia, of course, 
has been tremendously helpful on a number of fronts, both 
Sudan, South Sudan--when Sudan was still one country--because I 
remember when I was Ambassador, I had a number of conversations 
with then-Prime Minister Meles about Sudan, at the time, the 
civil war--and then, of course, the other neighbor, Somalia.
    So Ethiopia has been a very positive force for stability 
and peace on both of those fronts. Yes, sir.
    Mr. Smith. Thank you very much.
    Just let me ask a few final questions, if I could.
    Mr. Secretary, you know, I have been to South Sudan twice 
within the last 2\1/2\ years or so and, like you, am greatly 
distressed over Salva Kiir's performance and how destabilizing 
it has been, and the loss of life in not just South Sudan but 
the explosion of refugees and IDPs from that manmade crisis. So 
we wish you well as Assistant Secretary for all of Africa, of 
course, in your efforts there.
    Just a small recommendation would be to consider bringing 
former President George W. Bush back into it. He and Salva Kiir 
did hit it off well. Kiir still wears the hat given to him by 
President Bush.
    Ambassador Nagy. That is right.
    Mr. Smith. And I think President Bush would be more than 
helpful and effective in saying, ``Get with the program, Mr. 
President. End the complicity of your troops with rape and 
pillaging of food stuffs,'' the World Food Programme and our 
own, of course, being stolen by some of them. It is just awful. 
So if you could maybe take that back.
    But let me just ask a question. In Abyei, as we all know, 
the disputed border between Sudan and South Sudan, Ethiopian 
peacekeepers have played a huge role. And we know that there is 
consideration being given to downgrading that--their withdrawal 
of mechanized artillery units, replacing them with police.
    When we met with General Mekonnen, he voiced his extreme 
concern about that. And I would hope that you would take that 
back, that it could actually make the situation worse. And he 
also made the point that he may even withdraw all of his 
troops.
    So I do hope that that is something you might want to speak 
to. Because I think every dollar we invest in U.N. 
Peacekeeping, especially in a place like Abyei, is a dollar 
well-served. The mission supports it. Any efforts at cost-
cutting I think would be not achieved because there could be 
the loss of life.
    Also, some of our witnesses will follow--so if you could 
speak to that--will follow in a moment with panel two, 
including Jamal Said.
    And we heard this while we were there, and of course we 
pushed this in our resolution, and that is the idea of having a 
commission, investigation, perhaps a peace and reconciliation 
commission that parallels what South Africa did, what El 
Salvador did after its terrible war with the FMLN, to try to 
weed out the bad apples, hold them to account, and move on to a 
reconciliation process that, you know, leads to a stronger and 
more human-rights-oriented Ethiopia. So if you could speak to 
those.
    And, finally, in our witness testimony from Emily Estelle 
from AEI, she makes a number of excellent points, but one of 
them is that sustained conflicts risk mobilizing Ethiopia's 
Somali population, potentially causing a new opportunity for 
al-Shabaab to recruit or even expand its attacks in Ethiopia. 
Your assessment of that risk of those Somalis who, obviously, 
live in and around Ethiopia?
    Ambassador Nagy. Thank you very much, Mr. Chairman. Again, 
if you permit me, I will take those in reverse.
    Mr. Smith. Sure.
    Ambassador Nagy. With the Somali situation, indeed, one of 
the reasons that the Somali regional state of Ethiopia had such 
a large police force, the so-called Liyu police, there were so 
many of them, was exactly the reason to make sure that al-
Shabaab stays out of the Ethiopian-Somali region.
    Unfortunately, the local political forces were working for 
ill. They used the Liyu police for human rights violations, for 
repressing the local population. And when Prime Minister Abiy 
recently changed the Somali leadership, they were largely 
responsible for some of the violence and mayhem in the Somali 
region.
    Prime Minister Abiy and the Ethiopian leadership is very 
concerned with the potential for al-Shabaab influence and entry 
into the Somali region, so they are keeping their eyes on that. 
And the Ethiopian security forces are also very sensitive to 
that issue. So we definitely will engage on that, because that 
fits, obviously, in with U.S. Strategic interest on that one.
    On the peace and reconciliation commission, again, I 
absolutely accept, embrace that suggestion. And I would just 
underline that, with the Ethiopians, it is a system that they 
will need to develop unique to their culture, their history, 
how they want to go about it. And we will be as supportive as 
we can be, as we have been in a number of other situations 
around the world. And the South African one, obviously, was a 
very effective and working model in Africa.
    On the U.N. Peacekeeping, of course we have been in contact 
also with the Ethiopians on their concerns. And, globally, the 
U.N. Peacekeeping forces are very much of an issue for the 
United States, and our government is looking at the various 
peacekeeping forces and how to put what resources where. So we 
will definitely maintain that conversation with them, because 
we have heard the same thing that you have, Mr. Chairman.
    Mr. Smith. Thank you very much.
    Anything else?
    Mr. Coffman. Oh. Yeah.
    Mr. Secretary, just one final point, and that is, how would 
you characterize the forces working against the Ambassador 
right now, in terms of his trying to move these reforms forward 
within Ethiopia?
    Ambassador Nagy. As I mentioned, it is certainly not a done 
deal. The situation is still very fragile. We know that there 
are reactionary forces at work as well. They may have been 
partially part of the reason that the Somali region so erupted 
in violence recently.
    That is why I think it is critically important for the 
friends of Ethiopia, at this time, to be as supportive as 
possible so that Prime Minister Abiy can go back to the people 
and show actual, concrete results.
    Because one point I make over and over again is that the 
young people of Africa--and they are the young people of 
Africa--have exactly the same dreams and ambitions as young 
people everywhere else, thanks to modern technology. And that 
is the kind of life they want, and that is what they are 
expecting from their own leaders. And the enlightened leaders 
understand this, and they want to respond very quickly, because 
otherwise they won't have much of a future.
    Mr. Coffman. Thank you, Mr. Secretary.
    I yield back.
    Mr. Smith. Thank you so much, Mr. Secretary, and we look 
forward to working with you going forward.
    Ambassador Nagy. Thank you so, so much, Mr. Chairman and 
members of the panel. Thank you.
    Mr. Smith. I would like to now welcome our second panel to 
the witness table.
    And I would like to yield to Mr. Coffman to do the 
introductions for our distinguished witnesses.
    Mr. Coffman. Thank you, Mr. Chairman.
    I would like to introduce our second panel.
    Girum Alemayehu is the cofounder of the Ethiopian American 
Development Council. He is also a founding member of a sister 
organization, the Ethiopian American Civil Council, based in 
Aurora, Colorado.
    He plays a leading role in several civic engagement and 
humanitarian projects in Colorado. Mr. Alemayehu is the 
cofounder and cochairman of the Taste of Ethiopia, a nonprofit 
based in Denver that promotes Ethiopian heritage and community 
service in a festival that brings together over 10,000 people 
each year.
    Mr. Alemayehu grew up in Ethiopia and studied philosophy 
and played soccer in Addis Ababa University. He pursued a 
master's of science in agricultural education from Oklahoma 
State University and is a Ph.D. Candidate in the Walden School 
of Public Administration.
    Thank you for being here today. We look forward to your 
testimony.
    Do you want me to do the second one?
    Mr. Smith. Yes.
    Mr. Coffman. Okay.
    And then I am proud to introduce, from Colorado as well, 
Jamal Said. He is the president of the Oromo Community of 
Denver and a human rights activist. He grew up in the Oromia 
regional state of Ethiopia and came to the United States in 
January 1999, seeking refuge from persecution.
    He graduated from Columbia College in 2009 with a degree in 
business administration. He is married and has four children 
and lives in Aurora, Colorado.
    Thank you for testifying before the subcommittee today.
    Mr. Smith. Thank you very much, Mr. Coffman.
    I would like to now introduce, as well, Emily Estelle, who 
is a senior analyst for the Critical Threats Project at the 
American Enterprise Institute and the Africa team lead. She 
studies the Salafi-jihadi movement in Africa, including al-
Qaeda, ISIS, and associated groups.
    Ms. Estelle specializes in the Libya conflict and has 
expertise in the Horn of Africa. Ms. Estelle also coordinates 
the Critical Threat Project's training and tradecraft and 
manages the integration of technology into the research 
process.
    Ms. Estelle graduated summa cum laude from Dartmouth 
College with a B.A. in anthropology, modified with Arabic 
language.
    We then will hear from Yoseph Badwaza, who is a senior 
program officer for Ethiopia at Freedom House.
    Prior to his position at Freedom House, he was the 
secretary general of the Ethiopian Human Rights Council, 
Ethiopia's foremost human rights organization. Mr. Badwaza fled 
Ethiopia in 2009, when government attacks on the Ethiopian 
Human Rights Council became more persistent.
    When he arrived in the U.S., Mr. Badwaza continued his 
advocacy of human rights protection and good governance. In 
2010, he received the Alison Des Forges Award from Human Rights 
Watch for his activism.
    Mr. Badwaza has an LL.B. From Addis Ababa University and an 
LL.M. in human rights from the University of Pretoria in South 
Africa.
    We will now begin.

    STATEMENT OF MR. GIRUM ALEMAYEHU, CO-FOUNDER, ETHIOPIAN 
                  AMERICAN DEVELOPMENT COUNCIL

    Mr. Alemayehu. Chairman Smith, Ranking Member Bass, and 
distinguished members of the committee, thank you for the 
opportunity to testify on the situation in Ethiopia.
    I would like to open my testimony first by thanking my 
Representative, the Honorable Mike Coffman from Colorado 
District 6, for his support to the Ethiopian-American 
constituents in his district and for giving us the forum to 
voice our concern about current developments in Ethiopia.
    I also would like to recognize the active participation of 
all Ethiopians, from all walks of life, in advocating the 
passage of H. Res. 128.
    H. Res. 128 was passed on April 10, 2018, and in the same 
month, the long-lived struggles of the Ethiopian people 
resulted in disintegration of the EPRDF from within. The former 
Prime Minister was unable to control the situation, even after 
declaring the state of emergency, and resigned.
    Following that, a new, vibrant Prime Minister was 
appointed. I give full credit to Dr. Abiy Ahmed, Lemma Megersa, 
Gedu Andargachew, and Demeke Mekonnen for their extraordinary 
work in transforming Ethiopia from a looming ethnic-based civil 
war into unprecedented civil peace.
    Ethiopia is undergoing peaceful changes unlike any that has 
been seen in its long history. After 27 years of dictatorial 
rule, Ethiopians for the first time are now seeing the dawn of 
a new day in which they are regaining hope and confidence in 
their future.
    Over the past 6 months, we have seen things none of us 
expected in our wildest imagination. To put some examples, the 
state of emergency was lifted; many political prisoners were 
released; Ethiopians who were denied entry into Ethiopia are 
now receiving a hero's welcome.
    Peace was finally achieved with neighboring Eritrea. The 
phone service and flights are reinstated. They are also working 
hard to reconnect the countries through the five roads. Some of 
the roads that were heavily mined are now being repaired for 
commercial use between the two countries.
    The government has made a significant stride toward the 
market economy and even offered to partially privatize some of 
the government-owned businesses. Ethiopian Airlines and 
Ethiopian Telecom are the two biggest that are slated for 
privatization.
    The press is operating without being muzzled by the 
government, and independent media networks are allowed to work 
from Ethiopia.
    With all the changes happening there, there are some 
worrying events.
    All over the country, nearly 2 million people have been 
forced out of their homes to escape violence, particularly 
Oromos from the Ethiopian Somali region, Gedeos from Oromia, 
Wolaytas from South region, and Amharas from Benishangul Gumuz. 
Most of them are women, children, and the elderly.
    The attempt to take the life of the new Prime Minister at a 
public support rally in Addis Ababa this past June has yet to 
be resolved in spite of help from FBI investigators from the 
USA. There were highly publicized cases of mob justice in 
Shashemene in Oromia and Bure in Amhara regions.
    The terror unleashed in Jigjiga, the capital of the 
Ethiopia-Somalia region, where six churches were burned down, 
priests were killed, and people labeled as highlanders were 
viciously murdered in public squares.
    All these signs, I believe, show the weakness in the 
institutions that safeguard law and order, human rights and 
democracy. The last 27 years, the EPRDF has weakened the 
institutions to be subservient to it.
    The U.S. Can help strengthen the institutions by providing 
resources for capacity building of the Human Rights Commission, 
the Election Commission, and the Broadcast Authority as 
independent, competent, and credible institutions.
    We would like the USA to urge the Ethiopian Government to: 
Create an independent commission to conduct a full, credible, 
and transparent investigation into the killings, detention, 
torture, and instances of excessive use of force by security 
forces, and hold accountable security forces accused of such 
actions through public proceedings, and to publicly release the 
written findings from such an investigation;
    Organize an independent commission that oversees the 
reorganization of the Human Rights Commission, the Election 
Commission, and the Broadcast Authority to be independent 
institutions;
    Conduct a full, credible, and transparent investigation 
into the recent ethnic violence that led to loss of life and 
displacement of a large number of Ethiopians, including those 
that targeted Amharas in Benishangul, Oromos in Somali region, 
Gedeos in Oromia region, and Wolyatas in Southern region, and 
hold accountable those responsible for those human rights 
violations;
    And to call for an open, constructive dialogue with all the 
opposition forces, both at home and abroad, armed and peaceful, 
in order to chart the country's future together.
    I know, Mr. Chairman, under your leadership, your committee 
in this House will do its part for well-being of the Ethiopian 
people. Thank you, Mr. Chairman and members of the committee, 
for the opportunity to appear before you today. I stand ready 
to answer any question you might have.
    [The prepared statement of Mr. Alemayehu follows:]
    
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very, very much.
    Mr. Said?

  STATEMENT OF MR. JAMAL SAID, PRESIDENT, OROMO COMMUNITY OF 
                             DENVER

    Mr. Said. Chairman Chris Smith, Ranking Member Karen Bass, 
Members of Congress, Ambassador Tibor Nagy, fellow panelists, 
and distinguished guests, I offer my gratitude to my 
Congressman, Mike Coffman, great ally of the Ethiopian-
Americans in his district, for the opportunity to represent not 
only Oromo Community of Denver but to speak to the concerns 
shared by Oromo and other communities across the U.S. And 
Ethiopia.
    When we brought to you the demands of the Oromo youth, who 
are known as Qeerroo, we in the diaspora stepped up to speak 
for them because their voices were not heard in the 
international community. Now, with many of the reforms, voices 
that were once silenced are finding expression and they can be 
heard.
    And we are grateful that you, Chairman Smith and Ranking 
Member Bass, have followed up with a congressional delegation 
to Ethiopia on August 23rd, where you recognized, met with, and 
spoke with Qeerroo in Addis Ababa.
    Prime Minister Abiy Ahmed's strong reforms are certainly to 
be celebrated. Now it is necessary to consolidate and to build 
on these reforms in order to bring opportunity and prosperity 
to the Qeerroo and to the country.
    Everyone thought that Ethiopia was on the verge of collapse 
until the Qeerroo proved to be disciplined, sustained, and 
nonviolent in their modern form of resistance. They created the 
opening that ushered in this era of change.
    I want to remind you of the need to ensure that the benefit 
and the opportunity created now with the grassroots. Those who 
took the greatest risk and have made the greatest sacrifice 
must not be forgotten or marginalized again.
    At this point, most key demands of the Oromo protesters 
have not yet been met, but they have hope and we have hope.
    The first is land rights. The first line of resistance was 
over the loss of ancestral land. This matter has not yet been 
addressed. The land of indigenous Oromo, Anuak, Sidama, and 
many other peoples were turned into a commodity for sale or 
lease without their knowledge or consent.
    Another is language rights. A major demand of Oromo youth 
is to gain access to opportunity and shared prosperity. The 
need to adapt Afaan Oromo as a Federal working language in 
Ethiopia alongside Amharic remains a top priority. In day-to-
day reality, access to a vast array of opportunities is 
currently blocked for those who do not speak Amharic.
    Another key demand is for justice and accountability. You 
should be aware that, despite the release of prisoners in 
Ethiopia, the killing and the displacement of Oromo and other 
people in some areas has intensified, particularly in East 
Hararghe, West Hararghe, Bale, Guji, and Borana. Over 2 million 
people are now displaced across the country, destitute, in 
urgent need of international assistance to be resettled back in 
their homes.
    The many cases of disappearance and imprisonment highlight 
the need for an independent commission created to conduct a 
full investigation and release its findings and 
recommendations.
    Regarding the demand of inclusive governance, Ethiopia is 
home to multiple communities who have been marginalized. A 
democratic Federal system where power is not monopolized at the 
center can ensure that diverse views and interests in Ethiopia 
are served. To attain a transition to democracy from 
authoritarian rule, free and fair elections must be carried out 
in the context of a robust civil society, with an in-person and 
independent electoral vote.
    I summarize my written remarks by saying that the daily 
lives of ordinary Oromo and Ethiopian people have not yet 
improved, but the people have hope and they have appreciated 
the opening offered by Abiy's reform. Even the Qeerroo from the 
most deprived areas will point out the marginalization has 
become deeply institutionalized. To undo these arrangements 
takes vision, time, patience, and collaborative efforts.
    The Qeerroo are eagerly committed to joining in the task. 
They understand that the U.S. Congress has been a great ally 
who has stood with them. We in the diaspora are pleased to 
continue to play a supportive role in this journey.
    Finally, my written testimony includes my recommendations 
to the subcommittee which I believe will help Ethiopia 
transition to a democracy.
    Thank you for this opportunity, Mr. Chairman. I yield the 
remaining of my time.
    [The prepared statement of Mr. Said follows:]
    
    
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much.
    And I would like to now ask Ms. Estelle, if you could give 
us your testimony.

   STATEMENT OF MS. EMILY ESTELLE, SENIOR ANALYST, CRITICAL 
         THREATS PROJECT, AMERICAN ENTERPRISE INSTITUTE

    Ms. Estelle. Chairman Smith, Ranking Member Bass, and 
distinguished members of the subcommittee, thank you for the 
opportunity to speak about Ethiopia's strategic importance. I 
will focus on the implications of Ethiopia's potential 
destabilization and present risks to U.S. national security 
interests in the Horn of Africa.
    Ethiopia is a key partner to secure U.S. interests. I am 
aware of the current optimism about its trajectory, and I want 
to share that optimism, but I must raise reasons for concern.
    There is a risk that local and regional conflicts, 
exacerbated by geopolitical competition, will destabilize 
Ethiopia and expose the weakness of partner-reliant U.S. 
strategies. Direct U.S. interests are at risk in the Horn of 
Africa, including the fight against al-Qaeda and ISIS and 
freedom of movement in the Red Sea.
    Ethiopia faces a rapid political transition and ethnic 
conflict that could escalate and challenge its stability. Much 
of the unrest is on the border of the Somali regional state, 
where Prime Minister Abiy Ahmed also faces resistance to his 
consolidation of power. Sustained conflict could mobilize 
Ethiopia's ethnic Somali population, potentially creating an 
opportunity for al-Shabaab to recruit or even attack in 
Ethiopia.
    The Abiy government approach, which includes mass arrests 
and internet blackouts, could exacerbate rather than solve the 
problem. Instability in Ethiopia would undermine U.S. efforts 
to neutralize al-Shabaab, al-Qaeda's Somalia-based affiliate, 
and reverberate regionally. Persistent ethnic violence or an 
insurgency from anti-Abiy security officials would draw the 
regime's focus inward, affecting regional peacekeeping and 
diplomatic efforts.
    American, Somali, and African Union forces have disrupted 
al-Shabaab in central Somalia and improved security in 
Mogadishu but have not yet broken its hold on large areas of 
southern Somalia. These gains will evaporate if Ethiopia, 
Kenya, or Uganda, which faces an escalating political crisis, 
falters and redeploys troops home.
    The problem of al-Qaeda and ISIS must also be considered 
alongside issues of human rights and democracy. These groups 
gain strength by defending and governing Sunni populations made 
vulnerable by conflict and societal disruption. Conditions in 
Ethiopia could create this opportunity.
    Ethiopia's conflicts typically divide along ethnic lines 
rather than confessional or sectarian ones, but al-Qaeda has a 
strategy of coopting ethnic conflicts and is succeeding this 
way in West Africa, for example.
    Both al-Qaeda's and al-Shabaab's ambitions extend beyond 
greater Somalia, which includes parts of eastern Ethiopia, to 
all of East Africa. ISIS, which is growing in Somalia, could 
also target Ethiopia. Legitimate and responsive governance for 
all Ethiopians both protects their human rights and inoculates 
them against extremist organizations.
    The Ethiopia-Eritrea rapprochement is another positive 
development that nonetheless raises threats to U.S. interests. 
The UAE's facilitation of the agreement occurs in the dangerous 
context of a larger contest among Middle Eastern states. 
Escalating geopolitical competition in the Horn of Africa is 
layering proxy conflicts onto existing fault lines and 
increasing the potential for instability, even while generating 
some positive effects.
    Power plays by external actors have caused political 
turmoil in Somalia, weakening the Federal Government on which 
the U.S. counter-al-Shabaab strategy relies. Militarization of 
the Horn and the southern Red Sea has already affected 
commercial trade and threatens freedom of navigation.
    Russia and China are also expanding their influence. The 
Ethiopia-Eritrea rapprochement may accelerate this trend, as 
Russia strikes basing deals with Eritrea and Djibouti, which is 
home to a vital U.S. base, faces potential isolation that may 
drive it toward China.
    Experiences elsewhere have shown that supporting strongmen 
does not guarantee security. Ethiopia is no exception. In 
supporting Ethiopia, we must recognize that redressing 
legitimate grievances and protecting human rights yields long-
term security dividends. Investment in good governance and 
security also prevents groups like al-Shabaab and ISIS from 
attempting to coopt local grievances. The U.S. must also weigh 
the values of outsourcing foreign policy objectives to partners 
against the potential adverse effects of their involvement.
    The U.S. can begin to shape its approach to Ethiopia in two 
ways: By first using all available tools to help Prime Minister 
Abiy demilitarize his response to ethnic violence, resolve 
internal disputes, and conduct necessary structural reforms 
peacefully and acceptably to all sides; second, ensuring that 
the U.S. remains the sole guarantor of its interests in the 
region by not relying on the UAE or any other outside power to 
manage these interests.
    Ethiopia is a critical country in an increasingly important 
region. The U.S. must recognize the dangers of rapidly changing 
dynamics in the Horn of Africa to prepare for worst-case 
scenarios even as we regard new developments with optimism.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Estelle follows:]
    
    
          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much.
    Mr. Badwaza?

  STATEMENT OF MR. YOSEPH M. BADWAZA, SENIOR PROGRAM OFFICER--
                     AFRICA, FREEDOM HOUSE

    Mr. Badwaza. Chairman Smith, Ranking Member Bass, and 
members of the subcommittee, it is an honor to testify before 
you today. And I would also like to recognize the 
subcommittee's great leadership on human rights issues in 
Ethiopia.
    We are witnessing a pivotal moment in Ethiopia's history. 
If reform succeeds, Ethiopia could become one of the world's 
few victories for democratic governance, with significant 
implications for the entire continent.
    Since the selection of Abiy Ahmed as the Prime Minister, we 
have seen many positive changes. Since a lot of the positive 
developments have been raised in the first panel and by my 
distinguished panelists, I would like to focus on the 
challenges and the recommendations that we would like to make 
to make the change even deeper and more inclusive.
    The positive steps of releasing thousands of political 
prisoners and the amnesty for opposition party members, 
including those that are designated as terrorist organizations 
by Ethiopia's Parliament, and also the plan to limit the term 
of the Prime Minister's office by making constitutional 
changes, and initiating legal reforms, including the charities 
and societies antiterrorism law, and the plans to liberalize 
the economy, ending the state monopoly, and by appointing 
reform-minded executives to key economic positions, is 
something we should all be recognizing.
    And another key positive step is also the move that the new 
Prime Minister took to end 20 years of hostilities between 
Ethiopia and Eritrea.
    When it comes to the challenge, again, despite the many 
positive developments, these challenges still remain.
    The first one is, while popular support for Abiy and 
reformers in the ruling party appears to be strong, internal 
power struggles have not yet been resolved. Powerful members of 
the establishment are not completely convinced of the wisdom of 
reform measures and continue to lament that EPRDF is abandoning 
its ideological foundations of developmental state and 
revolutionary democracy in favor of neo liberalism and populist 
tendencies.
    Because there has been minimal distinction between the 
state and the ruling party, the internal EPRDF crisis directly 
impacts the way the government conducts its business. As a 
result, party and government officials who are not on board 
with Abiy's reform agenda are in a position to derail reforms.
    There is also a need to revive--the challenge of reviving 
independent media and civil society that have been decimated 
through years of violence from the government and draconian 
legislation. Ethnic-based clashes also threaten the pace and 
sustainability of reforms, as fear of protracted violence and 
political instability persist. In the past few months, ethnic-
based identity clashes killed hundreds of civilians and 
displaced over a million. Government strategy in this area 
seems to be largely reactive.
    With the liberalization of the political environment and a 
new tolerance for free speech, we have seen heightened 
nationalistic and identity-based rhetoric putting enormous 
strain on the long tradition of coexistence among Ethiopian 
ethnic communities.
    The antigovernment protests that led to the current change 
in Ethiopia were primarily organized and led by the youth. 
Reform measures are generating high expectations among the 
youth and could lead to resentment and unrest if left unmet.
    Armed members of former insurgent groups are returning 
home. It is not clear whether these former fighters have gone 
through proper demobilization, rehabilitation, and 
reintegration processes. The injection of such forces into an 
already-tense environment could easily fuel violence, and there 
have been incidents of violent confrontations between 
government security forces and these former fighters.
    Other than promising to make the next elections free and 
fair, the government has not yet rolled out a roadmap for 
electoral reforms, nor has it conducted the constitutionally 
required census that was postponed in November 2017 for 
security reasons. Updated census data is crucial for elections. 
Past findings were bitterly contested and led to violence.
    Lack of public trust in the security service is also a 
challenge. While there have been encouraging signs of restraint 
by security forces dealing with crowds in recent months, public 
trust in law enforcement remains very low, and numerous 
instance of abuse remain unaddressed. Widespread skepticism 
about the government's handling of the June bombing at the pro-
Abiy rally in Addis Ababa and also the death of the chief 
engineer of the Grand Renaissance Dam reflect that trust 
deficit. This in the future poses a serious problem, impeding 
legitimate law enforcement work and resulting in extralegal 
measures, as observed in recent months in parts of the country.
    Some policy recommendations that we would like to propose 
are: For the United States to ensure the viability of reforms, 
the United States should press the Government of Ethiopia to 
mend longstanding ethnic grievances.
    Abiy's vision of unity, reconciliation, and inclusion 
should include concrete strategies aimed at fostering social 
cohesion. The government should seek to prevent and resolve 
violent clashes in a manner that involves affected communities 
by establishing an early-warning system and investigating and 
punishing perpetrators.
    It is critical that the government address youth 
expectations, undertaking economic reforms to generate job 
creation, and provide education opportunities that allow youth 
opportunities for the future.
    With national elections in less than 2 years, the 
importance of thorough reforms to ensure free and fair 
elections cannot be overstated. Eliminating draconian barriers 
to participation, including political party registration rules, 
the structure and composition of the National Electoral Board 
of Ethiopia, and the number of seats in wereda and kebele 
councils are some of the longstanding questions that need to be 
addressed before any credible election is to be conducted.
    Conducting the overdue census should also be part of 
preparations for elections.
    The government should accelerate the process of reforming 
the criminal justice system too, including revising and 
repealing repressive laws that impede freedoms of expression, 
association, and assembly; and, importantly, ensuring that the 
revision of these laws should be transparent, include all 
stakeholders, and occur in a timely manner.
    There is also a need to ensure a system of accountability 
for serious human rights abuses that occurred over the past 27 
years of the EPRDF rule. This may not necessarily mean that 
aggressive prosecution should occur, but it could entail a 
truth commission or another form of inquiry that allows the 
opportunity to air grievances, question officials, obtain 
documents, and seek closure. Such an approach can forestall 
extralegal acts of vengeance against former ruling party 
officials.
    There is also a need to reform the judiciary and law 
enforcement. It is to undertake comprehensive reform of these 
sectors to make them independent of political control and 
influence. The police forces and courts have been routinely 
used to level spurious and politically motivated charges 
against critics of the ruling party. Revision of restrictive 
laws, such as the antiterrorism proclamation, will have little 
impact in the absence of reforms to the criminal justice system 
itself.
    The U.S. could also help deepen political reform in 
Ethiopia by increasing U.S. financial and technical support for 
elections, including capacity-building for institutions such as 
the National Election Board. The 2019 local elections will be a 
key test for Abiy's ability to advance his reform agenda and 
could build positive momentum and experience leading up to the 
2020 national elections.
    The U.S. also should provide robust support to strengthen 
civil society and independent media. This would take advantage 
of the new political space and test its breadth in practice.
    To the extent allowed by Ethiopian laws, the U.S. should 
also support capacity-building for political parties, which are 
underdeveloped after years of repression and in need of 
assistance if they are to offer meaningful competition.
    The U.S. could also encourage substantive engagement in the 
reform process by the U.S.-based diaspora, which could include 
exchange programs that aim at mentorship of professionals in 
key sectors associated with reform efforts.
    Finally, if reforms continue to advance, the U.S. can 
strengthen economic ties with Ethiopia and expand U.S. economic 
support to assist the new government in providing tangible 
democratic dividends to a broad swath of population, enabling 
political reform to become clearly associated with an improved 
standard of living in what remains a largely impoverished 
country where growth has been unevenly distributed.
    I thank you, and I look forward to your questions.
    [The prepared statement of Mr. Badwaza follows:]
    
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Badwaza, thank you very much for your 
testimony.
    I would like to yield to Ranking Member Bass.
    Ms. Bass. Thank you, Mr. Chair.
    I just have a couple of quick questions, but let me just 
begin by thanking all of you, because in each of your 
comments--and we have your written documents here--you give 
very specific recommendations. So I was just speaking with a 
member of my staff that I want to compile all of those 
recommendations and look and see, you know, where we might be 
helpful.
    But I just have a couple of questions. I believe it was 
Alemayehu who mentioned the independent commission.
    Did you mention an independent commission? And I wanted to 
know--because you said that in the context of how the U.S. 
could be helpful. And I wanted to know what you meant. Who 
would be on an independent commission?
    And you also mentioned, I believe, people being--especially 
the Oromo people--being forced out of their homes and people 
going back. And how did you see that process taking place?
    Mr. Alemayehu. Thank you for the question.
    When I meant the independent commission, through the last 
27 years, every institution is either diminished or became 
subservient of the----
    Ms. Bass. No, I understood that.
    Mr. Alemayehu [continuing]. Dictatorial rule of the EPRDF. 
So, on this----
    Ms. Bass. Who would be on an independent commission?
    Mr. Alemayehu [continuing]. Independent commission, I am 
contemplating Ethiopians who have, you know, an independent 
view of this ethnic federalism to be in that part and to watch 
the election and to prepare for that, and also putting that 
with the watchful eye of the United States, with the support.
    Ms. Bass. So it was also mentioned about the Magnitsky 
Human Rights Accountability Act and the U.S. Government 
applying to Ethiopian Government officials. Why would we do 
that right now? And who would you be targeting? I mean, I know 
some of the offenders--Prime Minister Abiy has gone after 
himself.
    Mr. Alemayehu. I think all this is related to the capacity 
of the Ethiopian investigators and the last June assassination 
attempt toward Dr. Abiy at the rally just end up nowhere, and 
no public explanation is rendered as far as the attempt was 
concerned. Maybe this is an opportune time for the United 
States to help in expanding that investigation and let the 
Ethiopians know about it.
    On the other question, the Oromos were--it is a Somalia 
region, where the Somali region leader forced--due to a 
territorial or some kind of misunderstanding there, a lot of 
Oromos were pushed out from the Somali region, and they were 
not reinstated well yet. And this probably goes to the capacity 
of the Ethiopian Government.
    We are right now with the enthusiasm that Dr. Abiy brought 
with the reconciliation and peace and unity. How that is 
translated into the ground on that region is still 
questionable.
    Ms. Bass. Okay.
    Do any other panelists want to contribute?
    Okay. Go ahead.
    Mr. Said. Thank you, Ranking Member Bass.
    You know, over 2 million Oromos were displaced from the 
Somali region. It is not--Oromos and the Somalis have never 
conflict. They are brothers. They are the same people. Their 
displacement is politically motivated by the TPLF regime.
    As far as the Magnitsky goes, for the atrocities that have 
been committed for the 27 years, the country has been looted. 
When you met the youth in the communities in Ethiopia, you have 
heard the stories of Kefyalew Tefera, the young Oromo man who 
was snatched from the street and put in prison, and then he 
lost his two legs----
    Ms. Bass. Yeah.
    Mr. Said [continuing]. In the torture chambers.
    Ms. Bass. So I was trying to get at if you were suggesting 
that the Magnitsky Act be enforced before there is a truth and 
reconciliation process within Ethiopia, or that that would be 
one of the results.
    Again, when I looked at your recommendations--and I 
mentioned I want to compile them--I am just trying to figure 
out how to move forward with them.
    So there would be a reconciliation and then the U.S. would 
respond? Or are you saying that the U.S. should respond before?
    Mr. Said. I am sure--I think in House Resolution 128 the 
Magnitsky Human Rights Act apply globally. So----
    Ms. Bass. Right.
    Mr. Said [continuing]. The U.S. could act now to those 
offenders, some of them who are on the run. For example, the 
head of security forces, Getachew Assefa, is on the run.
    Ms. Bass. Right.
    Mr. Said. So the United States can be able to apply that.
    Ms. Bass. Okay. Thank you.
    Mr. Said. Thank you very much.
    Ms. Bass. Thank you, Mr. Chair.
    Mr. Smith. Thank you, Ms. Bass.
    Let me just ask a few questions about, first of all, 
trafficking. In the earlier panel with the Ambassador, the 
Secretary raised the issue of human trafficking in Ethiopia. I 
actually, 15 years ago or so, went to a shelter in Addis that 
was funded by the U.S. Government largely, and many of the 
women there had been trafficked into the Middle East. And they 
were the lucky ones who, obviously, came back, were rescued. 
And they were learning some excellent skills so that they could 
be employed. And, again, the U.S. taxpayer was funding much of 
it. And I think it is a great use of our dollar, to help people 
who have been horribly abused.
    But Ethiopia remains on Tier 2, and it has some very huge 
gaps, particularly in the area of child sex trafficking. And I 
would hope all of you, if you want to respond or not, would 
take back that we need to keep this as a priority in our 
dialogue with the new Prime Minister and his government.
    He has inherited, as I said before, just one problem after 
another. And certainly the cruelty that is imposed upon women 
and children with trafficking is among the worst on the planet. 
So I just would encourage you that we all be very proactive and 
helpful with his government on that.
    And if you wanted to speak to that, please do.
    On the issue of truth and reconciliation, you know, the 
South Africans really wrote the book on that, with Desmond Tutu 
leading the 17-member panel back in 1995. And if my memory is 
correct, some 21,000 people were interviewed. It became a very, 
very highly visible process. And there were some trying and 
successfully destroying documents leading up to its creation 
and even after its creation to avoid the accountability that 
this would help bring. But it had that incredibly laudable 
impact of moving the country forward.
    And my hope is--and, Jamal, you had this in your testimony 
today. It is certainly something that needs to be very 
seriously considered, but, obviously, the call is to be made by 
the Ethiopian Government itself. If you wanted to further 
elaborate on that, that would be excellent.
    And if I could, Ms. Estelle, you brought up--I think one of 
the things--my big takeaway as we got on the plane to come back 
was that there needs to be a managing of expectations by all 
the ethnic communities. This is going to take a long time, even 
though some very high-impact things have been done by the Prime 
Minister and done very successfully. Everyone is talking 
positively, but we have to make sure that everybody does not at 
some point say, ``Oh, well, now we are disappointed,'' and then 
there is a reversion back to violence, which would be the worst 
possible scenario. We need to stay at this, no matter how long 
it takes, and to encourage peaceful transition and 
reconciliation among all the disparate elements of the 
Ethiopian society.
    Again, Ms. Estelle, you did bring out that very, very 
dangerous situation with the Somali ethnic community, and maybe 
you would want to elaborate on that further. I did ask the 
Secretary, pursuant to your testimony, about that earlier. I 
would appreciate that.
    And, Mr. Badwaza, you--on the elections, everyone always 
wants an election ASAP, but it has to be done right, with a 
full accounting as to who is eligible to vote, and the whole 
process. I was there in 2005 when President Meles hijacked the 
election, and it was one of the worst processes I have ever 
seen for an election.
    And so we want a free and fair and totally transparent 
election. So the United States, I know, can be helpful to the 
Ethiopians. What date should there be? Should it be an 
aspirational goal or should it be more hardened, as to when 
that date should be?
    Parenthetically, Karen Bass and I and our staff, we were 
slated to go to the DR Congo right after our visit to Ethiopia, 
but we couldn't get in. We were denied a visa by the President. 
And, of course, the issue of elections there and the 
postponement of, for what I believe to be nefarious purposes, 
to stay in power, not because all the i's are dotted and the 
t's crossed.
    But we have to be helpful to the Ethiopians to get that 
right as well. And I think you can speak to that very well, if 
you would, from Freedom House.
    And then I will yield to Mike for any questions he might 
have, please. The reconciliation.
    Oh, and one other thing if I could. Archbishop Desmond Tutu 
had the gravitas to leave that--the respect of so many to leave 
that. Are there people within the church community or the human 
rights community that would come to mind? You don't have to 
name names, but I am sure there are some people who would play 
that role fairly and dispassionately so that it can be a very, 
very positive experience for the country.
    Mr. Alemayehu. Thank you.
    On the first question on trafficking women, children from 
Ethiopia to other countries, this issue is, you know, very 
rampant and very common in Ethiopia in every direction. And it 
is--as I see it, it is, you know, it is relies upon the 
economic capacity of the country.
    Many young women eluded by some dealers in the farmland or 
in the remote part of Ethiopia telling them, you know, there is 
an opportunity in other countries. Well, there is no 
opportunity in their village. So they are subject for this kind 
of sex trafficking and as we have been seeing in our recent 
history.
    So on this situation, you know, I am--the United States can 
play a lot in helping small neighborhood capacity building and 
creating an opportunity, helping the government, you know, to 
create an opportunity within the village so that, you know, 
young girls are not travelling from rural area to town to 
create an opportunity to earn a living and support their poor 
family.
    We know that Ethiopians, we are stricken by poverty. We 
have only our, you know, determination to succeed. So that is 
what the young kids, girls, going to somewhere they don't know 
with nothing in their hand to support their family. So it is 
capacity building help, an opportunity in the village.
    On the second question, on the peace and reconciliation, I 
work with churches. I serve in church. And there are--
Ethiopians usually we respect elderly and religious figures, so 
we can use religious figure in Ethiopia, the elderly to channel 
this very abstract concept of peace and reconciliation, because 
the peace and reconciliation process that we are in is good. We 
don't know where it ends because sometimes accountability is 
missing in that peace and reconciliation.
    So my suggestion is an academic think tank was religious 
figures we can--you know, the United States help in formulating 
or helping the government to formulate some kind of elderly 
group who can, you know, explain this peace and reconciliation 
to the young people who are expecting a result right now.
    And I don't think, you know, the current situation allows 
to satisfy all the younger generation to achieve economic 
prosperity and what they were expecting from the new 
government. So that is my suggestion, trying to formulate the 
elderly group based on religious father figures. Thank you.
    Mr. Said. Again, thank you.
    To respond to the trafficking it is very important to raise 
what was happening for the last 27 years. The TPLF and their 
families owned trafficking companies. Trafficking has been 
legalized in Ethiopia very much. They are the ones who 
transport young men and women to the Arab countries and 
everywhere but in--in another side they are accepting money 
from the United States Government to prevent trafficking, but 
in the other side they are the ones who involve it in 
trafficking. On this, thanks to our youths and Dr. Abiy, with 
Dr. Abiy administration and with the removal of TPLF from 
power, the trafficking can be under control.
    As far as the truth and the reconciliation goes, I am sure 
you have met Abba Gadaa Bayana Sanbato in your visit to Addis 
Ababas. He is the leader of Abba Gadaa in Oromo. So the civics 
association needs to be strengthened. A civic association like 
a Gadaa system need to be strengthened in Ethiopia because for 
the last 27 years the TPLF eroded, totally wiped out the civic 
societies so with elders we can have significant changes and 
then we have a proven result because the Oromo elders have 
played a significant role with the Somali elders to bring the 
change that we are seeing in Somalia's region now.
    So I will say strengthen the civic society in Ethiopia and 
repeal the antiterrorism law act in the charity law so that 
will help. Thank you very much.
    Ms. Estelle. Mr. Chairman, to speak briefly to your 
question about the Somali population in Ethiopia, the main 
point I want to make is that just because the conflict in that 
region is not yet connected to al-Shabaab doesn't mean that it 
can't become that way.
    So al-Qaeda globally has a strategy of working within local 
conflicts and essentially changing their character to serve 
their own objective. So if we look at West Africa right now, 
there is a case where groups affiliated with al-Qaeda and other 
jihadist groups have taken on the rhetoric of local ethnic 
conflict and inserted themselves into conflicts and gained 
support that way.
    And so I think that that is a possibility that we must be 
very aware of in Ethiopia if conflict persists and continues to 
fester, particularly in an environment where al-Qaeda 
leadership is emphasizing East Africa as a place for expansion 
right now.
    So while I don't think this is an immediate concern, it is 
one that we certainly need to be prepared for, especially with 
Ethiopia's regional importance. Where Ethiopia goes the region 
is going to follow, so it is the worst case but one that we 
must guard against. Thank you.
    Mr. Badwaza. Chairman Smith, thank you.
    I would like to make a contribution on the issue of 
Reconciliation and Truth Comission. It has been said, I think 
rightly, on the first panel that the state of issues in 
Ethiopia and elsewhere are clearly different than this calls 
for, I think, a deeper examination of what is on the ground in 
Ethiopia.
    To start with, we still have the same ruling party 
technically in power that is being accused of all the 
atrocities that have occurred in the past 27 years, so there is 
going to be a lot of interests that are going to be affected 
when we embark on this part of ensuring accountability.
    But the key is, I think, where the majority of citizens 
seem to be in agreement is that there needs to be some process 
which may be an opportunity to air grievances, which may be to 
provide an official sort of a national closure which may be a 
forum for people who have suffered so much over the past 27 
years at the hands of the security forces essentially with 
torture chambers and even in some cases unmarked graves of 
dissidents being accused of.
    So the issue for me is to carefully analyze what model 
would be effective for Ethiopia and not to lose sight of the 
fact that there is an imperative to at least provide this forum 
for airing grievances.
    On the issue of, I think, the elections, that is where I 
see, I think, the enormous task where Abiy's new government is 
going to be tested in terms of delivering and addressing 
expectations. One thing in this connection that I would like to 
make a point is that as the reforms take root and as the change 
get broadened there is also a need to expand this new group of 
leadership that Ethiopia is having to wider and more reform-
minded people.
    In other words, as we encourage the Prime Minister to carry 
on on the path that he has been following, there is a need also 
to get him and encourage him to continue some sort of embarking 
on some sort of a delegation of power and introducing many 
other supporters of the change to the floor so that he should 
not necessarily be personally expected to do a lot of the 
things that is expecting him to.
    Coming back to the elections, if we start with the 2019 
local elections which have been postponed from this year, there 
is enormous logistical and technical challenges that need to be 
met first. The first one is that there is this notion that 
there are over 3\1/2\ million seats across the country that 
need to be filled by the local and national elections, and this 
is partly what TPLF deliberately did since 2008 to discourage 
opposition parties to be able to field candidates. So there is 
a lot of questions from this newly reviving opposition groups 
to fix that system before any election is going to take place.
    There is also this longstanding issue of the independence 
of the national electoral board of Ethiopia. It has been widely 
recognized as a rubber stamp body where successive elections 
were won by EPRDF very single handedly with 100 percent 
difference.
    So there is this crucial task of doing these reforms before 
thinking of the logistical aspects of elections. And 
increasingly these opposition groups are indicating that this 
change should be given a priority.
    So I think other than in addition to supporting the Prime 
Minister and his team to deepen these reforms, it would be wise 
to encourage them to roll out their plan first and have the 
stakeholders have say in what is being planned. It could be 
running--conducting the elections now or it could be maybe 
waiting a little bit so that everyone could have their views 
aired so that we will not be going back to the types of 
elections that have been taking place in Ethiopia for the past 
27 years.
    So the logistical and technical and also legal challenge 
need to be addressed first. And I think the U.S. could be very 
helpful in encouraging the government, one, in providing 
technical support to the legal reform process that is taking 
place right now that would--that is expected to help civil 
society organizations and the independent media speak freely, 
engage the government, and other stakeholders in wide-ranging 
democratic processes including the elections.
    Mr. Smith. Thank you.
    Before yielding to Mike Coffman, I just would note that 
during our visit, and we have worked on this in this committee 
for years, but I raised with Prime Minister Abiy the issue of 
the first 1,000 days from conception to the second birthday in 
food security. I gave him Roger Thurow's book which is 
entitled--he has been one of the experts who has testified 
before this committee--on the importance of the first 1,000 
days from conception to the second birthday to mitigate child 
mortality, to hopefully put a huge dent in stunting, which is a 
huge problem in Ethiopia and elsewhere, to increase the 
strength and ability of women to overcome some of the problems 
that lead to maternal mortality.
    If the food and the supplementation is sufficient, both 
mother and baby are healthier. And obviously for the child, 
some of the cognitive loss that occurs when there is food 
insecurity can never be reclaimed. So this is that critical 
window.
    So for the record, I gave Roger Thurow's book to him. I 
made a strong appeal to him to work obviously with his own 
government but also to work with us because USAID does have a 
very robust program on this led so ably by Beth Dunford at 
USAID on the first 1,000 days.
    So I hope all of us, while we are working on the political 
side--and I know you all do this--continue to emphasize the 
humanitarian and health side as well. We will do an additional 
hearing on this in the near future, but I just want to get that 
on the record.
    The Prime Minister seemed very empathetic to those goals 
obviously, so the first 1,000 days is transformational. I have 
never seen in my entire career one program that can do so much. 
I mean, the PEPFAR program, all those do enormous good in 
mortality and morbidity really stopping the deaths attributable 
to AIDS. But this one, it is just--the kids are stronger. The 
mothers are stronger. And the next 25,000 or 30,000 days of 
their lives are that much improved when you get the first 1,000 
correct.
    So I would like to yield to Mr. Coffman.
    Mr. Coffman. Thank you.
    I just have one final question for all the panelists, 
starting with you, Mr. Alemayehu, and that is, how do you think 
that given the history of the United States and Ethiopia, 
sometimes positive, sometimes not positive, but how do the 
people of Ethiopia and you feel about the United States right 
now?
    Mr. Alemayehu. Thank you, Congressman.
    It is a really good question, and it has just touched me 
deeply. The United States has been helping Ethiopians since the 
relationship began in 1903. I am one of the beneficiary of this 
United States support to Ethiopia. Sometimes, as you said, it 
might be good, sometimes bad because of our leaders in 
Ethiopia, not because of United States.
    I came to United States from the university which is built 
by United States in 1953 in Alemaya. Now it is called Haramaya. 
That was the university I was working. It was built by the 
United States. I was--my first English teacher was a Peace 
Corps gentleman. I love him dearly, and they showed us the good 
of people.
    So I deeply thank the United States for their help and 
thank you for that question. And now, with the short past, we 
have some, you know, questionable support. It is not because of 
the United States support. It is our people who are bad on the 
top of, you know, the government who are using that support to 
the wrong direction.
    So I am thinking--I am, you know, suggesting any help, even 
if it is bad, it helps somebody in that country which needs 
that help. So we--Ethiopians are mindful of, you know, the 
United States' support and we love it. We appreciate it. I am 
thankful of that. Thank you.
    Mr. Coffman. Thank you.
    Mr. Said, how do you think that--how do you view the United 
States, but how do you think the people of Ethiopia right now 
view the United States?
    Mr. Said. Thank you so much. It is a great question.
    Let me start from this, from the Member of Congress. Some 
of you guys, like Representative Mike Coffman and 
Representative Chairman Chris Smith, your names are household 
names in the in most of the Ethiopian people. The Karos, not 
just me, the Karos who bring, who made this days possible, they 
believe that the United States Government and the Members of 
Congress are the greatest alive in their darkest time.
    We believe the help of the United States played a great 
role in bringing the change that we are witnessing, the change, 
you know, the changes that we see, the praise that we are 
giving to the Prime Minister. Prime Minister Abiy Ahmed was 
ordinary, a normal person about a year and a half ago. So the--
our youth struggle brought him to the frontline.
    So I believe, as my colleague said, the role of the United 
States it is not something that we see in Ethiopia and here in 
the diaspora as something that we see very lightly. So it is 
great, and we consider United States as a great ally of 
Ethiopia.
    And the other thing, something that I have to add is that 
Ethiopia has never been governed by the multiethnic Federal--
democratic federalism in the past 27 years. It is led by 
authoritarian rules, so people need to really understand that. 
So ethnic--multiethnic democratic federalism has not been tried 
in Ethiopia. People have been coexisted this. In some case that 
are three different religious in one household, and we cannot 
compare Ethiopia to Somalia where it is just one religion.
    So we are very much a great example to the entire world 
where religion can coexist, you know. We believe that we leave 
that to God. So I just want to add that. Thank you so much.
    Mr. Coffman. Ms. Estelle, any closing thoughts and about 
U.S. influence in terms of Ethiopia and where we are right now 
in terms of how the Ethiopian people see us?
    Ms. Estelle. Thank you, Congressman.
    I think that the U.S.-Ethiopia relationship is certainly 
strong. The one point I would add is that we can't take that 
strength for granted. I know this committee absolutely 
understands that, but looking at the rise of China in 
particular in the Horn of Africa, this week we had China 
refinancing Ethiopia's debt, for example.
    And so I do think the U.S. needs to be aware of competition 
in that space and where other states may be gaining influence. 
That said, I don't see the U.S. relationship to be particularly 
at risk at this time, but that there are more people bidding 
for that space than there have been previously. Thank you.
    Mr. Coffman. Thank you.
    Mr. Badwaza.
    Mr. Badwaza. Thank you, Mr. Coffman.
    I would say, I think from the point of view of government-
to-government relationship, I agree that the relationship has 
been strong. As much as the Ethiopian population looks up for 
the United States and the type of freedom people have here and 
the robust democratic process that takes place here, there is 
also a sense of disillusionments in some occasions, for 
example, that comes from--in recent years from the relationship 
being overly focused on the partnership on counterterrorism and 
also overly focusing on humanitarian and development support to 
Ethiopia instead of publicly supporting the aspirations of 
people to advance democratic ideals and freedoms and to show 
solidarity when it is much needed.
    In many instances that there is, I would say like to say, 
there is a mixed sort of sentiment when it comes to assessing 
that relationship as far as the regular Ethiopian is concerned.
    Yeah. Thank you.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you. Thank you, Mr. Coffman.
    And thank you to our very distinguished witnesses for your 
wisdom, for your leadership, your insights. Without objection, 
your full statements will be made a part of the record, and 
this hearing is adjourned.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         

                                 <all>
</pre></body></html>
